                                  ADVISORY




 INDIAN LAND CONSOLIDATION:
 PROPER USE OF FUNDING
 AGREEMENTS WITH TRIBES




Report No.: WR-EV-BIA-0017-2013     July 2013
                 OFFICE OF
                 INSPECTOR GENERAL
                 U.S.DEPARTMENT OF THE INTERIOR

                                                                                                     JUL 2 5 2013
Memorandum

To:                John McClanahan
                   Program Manager, Land Buy-Back Program for Tribal Nations

From:              Kimberly Elmore ~~ ~\..L..
                   Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:           Management Advisory- Indian Land Consolidation: Proper Use of Funding
                   Agreements with Tribes
                   Report No. WR-EV-BIA-0017-2013

        This management advisory, regarding the U.S. Department of the Interior's (DOl)
implementation of the land consolidation portion of the Cabell v. Salazar settlement, is a part of
the Office oflnspector General's (OIG) ongoing effort to monitor and evaluate the funding
appropriated to DOl in the settlement. Specifically, we are addressing the tribes' interest to be
involved in implementing the Indian land consolidation program and the proper use of funding
agreements. We believe these issues will be important to consider when providing funding to
tribes for Indian land consolidation.

Background

        DOl and tribes participated in seven consultation meetings throughout Indian country
during the summer and fall of 2011. One of the recurring themes of these meetings was the
tribes' desire to be involved with implementing the Indian land consolidation program. The
Cabell settlement allows for up to 15 percent of the Indian land consolidation fund to be used for
administrative costs. Departmental and tribal officials have discussed the possibility of providing
a portion of these administrative funds to participating tribes so that the tribes can become
directly involved in implementing certain pieces ofthe land consolidation process on their
respective reservations.

         In November 2011, OIG issued a report 1 identifying both the challenges and efficiencies
presented by Federal and tribal government involvement in implementing Cabell's land
consolidation provisions. In the report, we discussed challenges in the areas of data access, data
integrity, and privacy concerns. We also acknowledged the administrative and technological
benefits provided by Federal involvement and the outreach and incentive benefits provided by
tribal involvement.



1 " Indian Land Consolidation: Tribal Participation in Program Implementation," Report No. WR-EV -BIA-00 14-2011. November

2011 : http ://www.doi.gov/oig/reports/upload/WR-EV -BIA-0014-2011Public.pdf.



                              Office of Audit s, Inspections, and Evaluations   I W ashi ngton, DC
       In January 2007, prior to our reports regarding the Cobell settlement, we reported on
DOI’s use of cooperative agreements and found that nearly two-thirds of the cooperative
agreements reviewed should have been procurement contracts. 2 Subsequent to our report, DOI
modified the Departmental Manual to strengthen provisions on instrument selection and
compliance reviews. In September 2011, DOI issued a policy that instituted a monitoring
protocol for financial assistance programs.

Findings

Instrument Selection

        The Departmental Manual requires bureaus and offices to determine and use the
appropriate funding instrument when acquiring property and services or providing financial
assistance, whether that be a procurement contract, grant agreement, or cooperative agreement.
In addition, bureaus and offices are to document files with justification of the appropriate
financial assistance instruments. Bureaus are encouraged to seek advice, as needed, from the
Office of the Solicitor on the selection of an award instrument. Figure 1 explains the different
types of instruments.




2
 “Proper Use of Cooperative Agreements Could Improve Interior’s Initiatives for Collaborative Partnerships,” Report No. W-IN-
MOA-0086-2004. January 2007: http://www.doi.gov/oig/reports/upload/2007-G-2005.pdf.

                                                                                                                           2
                                              Funding Instruments

                                                                                    Bureau/Office
     Instrument                                   Purpose
                                                                                    Involvement
                              Acquire by purchase, lease, or barter
                              property or services for the direct benefit
Procurement                   or use of the Government. In specific
                                                                              Not applicable
Contracts                     instances, the head of the agency can
                              determine that the use of a procurement
                              contract is appropriate.
                              Transfer of a thing of value to the
Grant                         recipient to carry out a public purpose of      No substantial
Agreements                    support or stimulation authorized by a law      involvement expected
                              of the United States.
                              Transfer of a thing of value to the
                                                                              Substantial involvement is
Cooperative                   recipient to carry out a public purpose of
                                                                              expected
Agreements                    support or stimulation authorized by a law
                              of the United States.

Figure 1. This chart shows the different types of funding instruments and explains what they do and the level
of bureau involvement necessary.

        If grant agreements or cooperative agreements are considered, DOI must have the legal
authority to provide financial assistance, because unlike procurement contracts, agencies must
have express statutory authority to spend money using a grant or cooperative agreement. 3
Accordingly, if DOI intends to provide settlement funds via a grant or cooperative agreement, it
must identify with as much specificity as possible the particular statutory source of its authority
to do so. We noted that the Indian Land Consolidation Act states the Secretary “may enter into
agreements . . . with the tribal government that exercises jurisdiction over the land involved or a
subordinate entity of the tribal government to carry out some or all of the Secretary’s land
acquisition program.” 4

        As shown in Figure 1, cooperative agreement s require substantial involvement on the
part of the Federal Government. According to the Departmental Manual, a bureau may anticipate
substantial involvement when it participates and collaborates with the recipient, helps select
project staff, directs or redirects the work, or limits recipient discretion with respect to
management processes. Conversely, substantial involvement does not include Government
approval of recipient plans, normal exercise of Federal stewardship responsibilities, general
statutory requirements, or Government review of performance after project completion. 5




3
  31 U.S.C. §§ 6301-5.
4
  25 U.S.C. § 2212.
5
  Departmental Manual § 505, Chapter 2.9 B (3).

                                                                                                                3
Scope of Work

         The level of involvement by tribes will likely vary, due in part to each tribe’s unique
priorities and capacity. Agreements with tribes containing a detailed statement of work outlining
specific responsibilities of the tribes and DOI help to ensure clear understanding of the respective
roles and responsibilities. The Departmental Manual states that grant agreements or cooperative
agreements will be structured in a manner that—

       1. adequately describes the relationship based upon the degree of involvement of the parties;
          and
       2. defines and allocates respective responsibilities, obligations, rights, and accountability as
          appropriate to the particular project.

        In addition to the scope of work, statements of substantial Federal involvement are a
requirement for cooperative agreements. According to the Departmental Manual, bureaus and
offices are required to prepare an explicit statement of substantial Federal programmatic
involvement that includes the nature, character, and extent of the anticipated Federal
involvement for each cooperative agreement. This statement is to be part of the official
agreement and file. 6

Inherently Governmental Activity

        As a rule, the Federal Government may not pay an outside entity to perform inherently
governmental activities on its behalf. The identification of inherently governmental activities
may be more complex when discussing Indian tribes that are also considered sovereign
governments. The Office of the Solicitor can help clarify which, if any, activities related to
Indian land consolidation qualify as inherently governmental and therefore only Federal
personnel may perform them.

            As defined in OMB Circular A-76:

            An inherently governmental activity is an activity that is so intimately related to
            the public interest as to mandate performance by Government personnel. These
            activities require the exercise of substantial discretion in applying Government
            authority and/or in making decisions for the Government. Inherently
            governmental activities normally fall into two categories: the exercise of
            sovereign government authority or the establishment of procedures and processes
            related to the oversight of monetary transactions or entitlements. An inherently
            governmental activity involves—

                1. binding the United States to take or not to take some action by
                   contract, policy, regulation, authorization, order, or otherwise;
                2. determining, protecting, and advancing economic, political,
                   territorial, property, or other interests by military or diplomatic


6
    Departmental Manual § 505, Chapter 2.8 E (3).

                                                                                                     4
              action, civil or criminal judicial proceedings, contract
              management, or otherwise;
           3. significantly affecting the life, liberty, or property of private
              persons; or
           4. exerting ultimate control over the acquisition, use, or disposition of
              United States property (real or personal, tangible or intangible),
              including establishing policies or procedures for the collection,
              control, or disbursement of appropriated and other Federal funds.

Single Source Determination

        We recognize that there are circumstances where an organization, individual, or tribe may
be awarded Federal funds without competition. For instance, such determination may be based
on demonstrable criteria such as unique expertise or capacity to receive an award through a
cooperative agreement. Bureaus and offices must consider, however, the totality of
circumstances in determining whether to authorize a single-source award. Decisions to award
funds to a single source without engaging in competition must be able to withstand scrutiny;
protect the public interest; and comport with management priorities, objectives, and statutory
requirements.

         When anticipating a single-source award for $25,000 and above, the awarding bureau or
office must prepare and file a written justification to explain why competition is not practicable,
including a statement of which criteria justify the action and why. It must also publish a notice of
its intent to make the award in order to provide for transparency.

Legal Review

        We understand that the Office of the Solicitor will assist bureaus in review or
development of new programs or policies affecting future funding allocations, including grants
and cooperative agreements. We also understand that, upon request, the Office of the Solicitor
will review and advise the bureau or office if a proposed cooperative agreement or grant is
complex or novel, exhibits intellectual property issues, poses potential conflicts of interest, or
presents other concerns warranting legal review.

Monitoring

        DOI policy seeks to ensure the fiscal and programmatic integrity of its recipients through
proactive monitoring of financial assistance programs. Monitoring Federal financial assistance
programs promotes good stewardship of awarded funds and ensures that projects are carried out
in a manner consistent with the recipient’s approved project proposal or work plan. DOI has
developed a risk-based portfolio management framework for developing a monitoring strategy
that integrates baseline-monitoring activities and focuses limited monitoring resources on higher
risk awards. Please refer to DOI’s “Financial Assistance Monitoring Protocol” (DIG 2011-03)
for additional details on the monitoring requirement.




                                                                                                     5
       To assist your efforts in funding participating tribes to implement portions of the land
consolidation program, we included the following sources of guidance:

   •   Departmental Manual § 505, Chapter 2: “Procurement Contracts, Grant and Cooperative
       Agreements,” http://elips.doi.gov/elips;
   •   25 U.S.C. § 2212: “Fractional interest acquisition program,” http://uscodebeta.house.gov;
   •   31 U.S.C. §§ 6301-5: “Using Procurement Contracts and Grant and Cooperative
       Agreements,” http://uscodebeta.house.gov;
   •   U.S. Department of the Interior, Office of the Solicitor: “Partnership Legal Primer,”1st
       Edition, September 2004, http://www.doi.gov/pmb/partnerships/partnership-legal-
       framework.cfm;
   •   Department of the Interior Guidance Release (DIG) 2011-03: “Financial Assistance
       Monitoring Protocol,”
       http://www.doi.gov/pam/programs/financial_assistance/upload/DIG-2011-03-Financial-
       Assistance-Monitoring-Protocol_9-13-11.pdf; and
   •   OMB Circular A-102: “Grants and Cooperative Agreements with State and Local
       Governments,” as amended 8/29/1997, http://www.whitehouse.gov/omb/circulars_a102.

        Information contained in this advisory will be included in our semiannual report to
Congress. If you have any questions regarding this matter, or if we can provide further
assistance, please contact me at 202-208-5592.




                                                                                                  6
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
